Case: 18-40856

Document: 00515306330

Page: 1

Date Filed: 02/11/2020

1a

Exhibit A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-40856

FILED
February 11, 2020
Lyle W. Cayce
Clerk

PRINCE MCCOY, SR.,
Plaintiff–Appellant,
versus
MR. ALAMU,
Defendant–Appellee.

Appeal from the United States District Court
for the Southern District of Texas

Before JOLLY, SMITH, and COSTA, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Texas prisoner Prince McCoy sued Mr. Alamu, a correctional officer,
under 42 U.S.C. § 1983 for allegedly violating his Eighth Amendment rights.
He claimed that Alamu had sprayed him in the face with a chemical agent
without provocation. The district court granted summary judgment for Alamu
on the basis of qualified immunity (“QI”), dismissed McCoy’s official-capacity
claim, and denied McCoy’s motions to amend his complaint. We affirm.

Case: 18-40856

Document: 00515306330

Page: 2

Date Filed: 02/11/2020

2a

I.
McCoy was incarcerated in the prison’s administrative segregation
block. The parties agree that Alamu sprayed McCoy with a chemical agent
after a different prisoner had twice thrown liquids on Alamu. They disagree
about almost everything else.
Start with McCoy’s side of the story. On that day in 2016, Alamu came
by McCoy’s cell block. As Alamu approached the cell of Marquieth Jackson,
one of McCoy’s neighboring inmates, Jackson threw some water on Alamu.
Alamu radioed a sergeant, “who dealt with the matter.” About an hour and a
half later, Alamu returned to conduct a roster count. Again, Jackson doused
Alamu with water. Angered, Alamu grabbed his chemical spray and yelled
“where you at?” repeatedly at Jackson. McCoy’s fellow inmates screamed “you
can’t spray him!” But because Jackson had blocked the front of his cell with
sheets, Alamu couldn’t do anything. Two minutes passed. Alamu re-holstered
the spray and walked toward McCoy’s cell, asking for McCoy’s name and
prisoner number. As McCoy approached the front of the cell to inform him,
Alamu “sprayed [McCoy] directly in the face with his [chemical] spray for no
reason at all.”
Alamu remembers things differently.

He states that after being

“chunked with an unknown liquid” by Jackson, he “immediately . . . ran away
from the cell for cover.” As he approached McCoy’s cell, he “went blank” after
McCoy threw “an unknown weapon” at him, striking him in the face. Feeling
that his “life was in danger,” “the next thing that crossed [his] mind was to use”
the spray. He characterized his panicked reaction as an “involuntary action.”
Documents in the record suggested that the “weapon” was a “piece of rolled
toilet paper.” McCoy denies throwing anything.
The parties agree that immediately after spraying McCoy, Alamu

Case: 18-40856

Document: 00515306330

Page: 3

Date Filed: 02/11/2020

3a

initiated the Incident Command System over the radio. Prison staff arrived
with a video camera, and medical personnel checked on McCoy, who was provided “[c]opious amounts of water and fresh air” to wash off the chemicals. In
the video, 1 McCoy, pacing around the cell, stated that he couldn’t breathe, but
a nurse—speaking to the camera—noted that McCoy was “moving around just
fine” and was breathing “with no distress.”
The Use of Force Report found that McCoy hadn’t suffered any injuries,
but McCoy alleged that he had burning skin and eyes, congested lungs, difficulty breathing, stomach pain, vision impairment, anxiety, nightmares,
depression, and other emotional distress. The Report concluded that Alamu’s
use of force was unnecessary and inconsistent with prison rules, and he was
placed on three months’ probation.
Both McCoy and Alamu supported their versions of the events with
competent summary judgment evidence. McCoy relied mainly on his allegations and declarations from neighboring inmates who witnessed the events and
confirmed his story. Alamu leaned on the findings in the Use of Force Report
and the video.
McCoy sued Alamu for damages in his official and personal capacities,
contending that the spraying was excessive force in dereliction of the Eighth
Amendment. The district court granted summary judgment for Alamu on the
basis of QI for the individual-capacity claim, dismissed the official-capacity
claim as barred by the Eleventh Amendment, and denied McCoy leave to
amend his complaint. McCoy appeals pro se.

The Use of Force video showed only what happened after Alamu initiated the
Incident Command System—not the use of the spray.
1

Case: 18-40856

Document: 00515306330

Page: 4

Date Filed: 02/11/2020

4a

II.
We address the summary judgment “de novo, applying the same standards as the district court.” Arenas v. Calhoun, 922 F.3d 616, 620 (5th Cir.
2019). When an officer invokes QI, “the burden then shifts to the plaintiff, who
must rebut the defense by establishing a genuine fact [dispute] as to whether
the official’s allegedly wrongful conduct violated clearly established law.”
Brown v. Callahan, 623 F.3d 249, 253 (5th Cir. 2010). The plaintiff must show
that (1) “the officer violated a federal statutory or constitutional right” and
(2) “the unlawfulness of the conduct was clearly established at the time.” Rich
v. Palko, 920 F.3d 288, 294 (5th Cir.) (quotation marks omitted), cert. denied,
140 S. Ct. 388 (2019). We still view the evidence in the light most favorable to
the plaintiff. See Bourne v. Gunnels, 921 F.3d 484, 492 (5th Cir. 2019).
A.
The first QI prong requires McCoy to show a genuine factual dispute
about whether Alamu used excessive force. Brown, 623 F.3d at 253. In evaluating that claim, “the core judicial inquiry is . . . whether force was applied in
a good-faith effort to maintain or restore discipline, or maliciously and sadistically to cause harm.” Hudson v. McMillian, 503 U.S. 1, 7 (1992). We focus
on the prison official’s “subjective intent” and determine it “by reference to the
well-known Hudson factors.” Cowart v. Erwin, 837 F.3d 444, 452–53 (5th Cir.
2016). They are “(1) the extent of the injury suffered, (2) the need for the
application of force, (3) the relationship between that need and the amount of
force used, (4) the threat reasonably perceived by the responsible officials, and
(5) any efforts made to temper the severity of a forceful response.” Bourne,
921 F.3d at 491 (cleaned up).
The district court held that McCoy hadn’t shown a requisite factual
dispute. The evidence showed Alamu had acted in self-defense and in a good-

Case: 18-40856

Document: 00515306330

Page: 5

Date Filed: 02/11/2020

5a

faith effort to maintain discipline, and McCoy had provided only “bare allegations” that Alamu acted with sadistic intent.
Though the court assumed (based on the Use of Force Report) that there
was little need for the spray, the remaining Hudson factors weighed for Alamu,
who presented evidence that he reasonably perceived “a threat from McCoy.”
Jackson, the court noted, “had twice thrown liquids on Alamu,” creating a
safety risk. Alamu had “tempered the use of force . . . by using only a short
burst of spray, rather than the whole can, and by ending the incident immediately after the spray.” And McCoy’s injuries were minor, because, in the Use
of Force video, McCoy never complained about his eyes, and he was “walking
and talking with no detectible breathing issues.” 2
McCoy contends that the district court erroneously resolved genuine factual disputes, and we agree. The court needed to accept McCoy’s “version of
the disputed facts as true” and determine whether they “constitute[d] a violation of a constitutional right.” Carroll v. Ellington, 800 F.3d 154, 169 (5th Cir.
2015). It did the opposite, crediting Alamu’s version and resolving factual
disputes in his favor. That was error. See Bourne, 921 F.3d at 492.
The court noted that Alamu had presented evidence that he reacted
involuntarily after sensing a threat from McCoy. But McCoy disputed that
account. He alleged that Alamu had grown frustrated with Jackson and arbitrarily took out his anger on McCoy by spraying him “for no reason at all.” So
far from providing merely “conclusory allegations,” McCoy specifically alleged
that he had done nothing to provoke Alamu, and McCoy backed it up with
declarations of fellow inmates who’d witnessed the events.

That was

competent summary judgment evidence. See FED. R. CIV. P. 56(c)(4).
The district court also noted that a different, intervening event at which McCoy
alleged someone rubbed ammonia into his eyes, likely contributed to his ailments.
2

Case: 18-40856

Document: 00515306330

Page: 6

Date Filed: 02/11/2020

6a

Indeed, McCoy’s version of the disputed facts demonstrates a constitutional violation. The use of chemical spray is certainly not “a per se violation
of the Eighth Amendment,” even where the targeted “inmate is locked in his
cell.” Soto v. Dickey, 744 F.2d 1260, 1270 (7th Cir. 1984). Instead, “the appropriateness of the use must be determined by the facts and circumstances of the
case.” Id. Officials may use chemical spray where “reasonably necessary to
prevent riots or escapes or to subdue recalcitrant prisoners.” Clemmons v.
Greggs, 509 F.2d 1338, 1340 (5th Cir. 1975). But they cannot do so “for the sole
purpose of punishment or the infliction of pain.” Soto, 744 F.2d at 1270.
On McCoy’s adequately supported view of the facts, there was no need to
“subdue” McCoy—it was Jackson, not McCoy, who was “recalcitrant.” Granted, prison officials can use pepper spray on even a non-offending inmate (such
as McCoy) if doing so will help stifle a broader disturbance. See Baldwin v.
Stalder, 137 F.3d 836, 840–41 (5th Cir. 1998). But there is no allegation of any
melee beyond Jackson’s aquatic mischief. Instead, McCoy alleges that Alamu
sprayed him—confined to his cell—“for no reason at all.”
Thus, even accepting the district court’s view that the injuries were
minor and that Alamu tempered the use of force, 3 McCoy has shown genuine

We agree with the district court’s analysis of McCoy’s injuries and Alamu’s tempering of force. McCoy alleged that he suffered from burning skin and eyes, congested lungs,
difficulty breathing, stomach pain, vision impairment, and various forms of emotional
distress. Those injuries are minor. E.g., Bradshaw v. Unknown Lieutenant, 2002 WL
31017404, at *1 (5th Cir. Aug. 21, 2002) (characterizing as inconsequential similar injuries
the plaintiff allegedly suffered as a result of being pepper-sprayed). And the court properly
noted that some of them were likely attributable to the different event involving ammonia
allegedly rubbed into McCoy’s eyes.
3

Further, Alamu tempered the severity of the force he used. The court noted that he
used only 3.7 ounces of the 5-ounce can. And he immediately initiated the Incident Command
System after spraying McCoy instead of further antagonizing him. The injury and temperance factors thus cut against finding a violation. See Bourne, 921 F.3d at 491 (laying out the
Hudson factors for excessive-force claims).

Case: 18-40856

Document: 00515306330

Page: 7

Date Filed: 02/11/2020

7a

disputes as to whether there was any need for force, whether the force used
was proportionate, and whether Alamu reasonably perceived any threat from
McCoy. Viewing the evidence in McCoy’s favor, the Hudson factors thus suggest that Alamu was motivated by a bare desire to harm McCoy. See Bourne,
921 F.3d at 493.
That conclusion squares with unpublished decisions of ours and of our
sister circuits. In Chambers v. Johnson, 372 F. App’x 471, 472 (5th Cir. 2010)
(per curiam), we affirmed a denial of QI to officers who “emptied two cans of
chemical irritant into [the plaintiff’s] cell and shot [the plaintiff] twenty-nine
times with a pepper ball launcher.” Accepting the plaintiff’s version of the
facts, we held that spraying the plaintiff “after he had complied with the defendants’ demands was disproportionate to any possible provocation.” Id. at 473.
So too in Johnson v. Dubroc, 1993 WL 346904, at *2–3 (5th Cir. Aug. 11, 1993),
we held that a jury could’ve found that a prison official had breached the
Eighth Amendment in spraying the plaintiff with mace while the plaintiff was
secure in his cell and threatening no one.

Finally, in Treats v. Morgan,

308 F.3d 868, 870 (8th Cir. 2002), the court affirmed a denial of QI for a prison
official who had pepper-sprayed an inmate for refusing to “take [a] copy” of a
prison form. “[T]he evidence [did] not show an objective need for the force . . .
because [the plaintiff] had not jeopardized any person’s safety or threatened
prison security.” Id. at 872.
McCoy tells a story similar to that of the plaintiffs in Chambers, Johnson, and Treats: He was sprayed, in the confines of his cell, for no reason at all.
“Indeed, courts have frequently found constitutional violations in cases where
a restrained or subdued person is subjected to the use of force.” 4

McCoy’s

Kitchen v. Dallas Cty., 759 F.3d 468, 479 (5th Cir. 2014), abrogated on other grounds
by Kingsley v. Hendrickson, 135 S. Ct. 2466 (2015).
4

Case: 18-40856

Document: 00515306330

Page: 8

Date Filed: 02/11/2020

8a

allegations show a constitutional violation.
Alamu has two main responses, but neither saves him. First, he contends that he reasonably perceived a threat because McCoy threw a wad of
toilet paper at him. But even if that factual contention might persuade a jury,
it does not justify summary judgment. See FED. R. CIV. P. 56(a). McCoy denies
throwing anything at Alamu and supports his denial with competent evidence.
Relatedly, Alamu suggests that the spray was justified because the undisputed
facts showed that Jackson had twice thrown liquids on Alamu. But the conclusion doesn’t follow: Alamu sprayed McCoy, not Jackson. McCoy should not
bear the iniquities of his fellow inmate.
Second, Alamu appears to contend that McCoy cannot show a violation
because his injuries were de minimis.

But unfortunately for Alamu, the

Supreme Court has rejected that line of reasoning. 5 “Injury and force . . . are
only imperfectly correlated, and it is the latter that ultimately counts.” Wilkins, 559 U.S. at 38. Accordingly, because a reasonable jury could conclude
that Alamu’s use of force was excessive, McCoy meets his burden at the first
QI prong. See Brown, 623 F.3d at 253.
B.
The remaining prong requires McCoy to show that the relevant right was
clearly established. Morrow v. Meachum, 917 F.3d 870, 874 (5th Cir. 2019).
“The dispositive question is whether the violative nature of particular conduct

5

at 7):

Wilkins v. Gaddy, 559 U.S. 34, 39 (2010) (per curiam) (quoting Hudson, 503 U.S.

This Court’s decision [in Hudson] did not . . . merely serve to lower the injury
threshold for excessive force claims from “significant” to “non-de minimis”—
whatever those ill-defined terms might mean. Instead, the Court aimed to
shift the “core judicial inquiry” from the extent of the injury to the nature of
the force—specifically, whether it was nontrivial and “was applied . . . maliciously and sadistically to cause harm.”

Case: 18-40856

Document: 00515306330

Page: 9

Date Filed: 02/11/2020

9a

is clearly established. [That] inquiry must be undertaken in light of the specific context of the case, not as a broad general proposition.” Mullenix v. Luna,
136 S. Ct. 305, 308 (2015) (per curiam) (citation and quotation marks omitted).
“The pages of the United States Reports teem with warnings about the difficulty of” showing that the law was clearly established. Morrow, 917 F.3d
at 874.

Doing so “is especially difficult in excessive-force cases” such as

McCoy’s, because “the result depends very much on the facts of each case.” Id.
at 876.
Even so, our caselaw “does not require a case directly on point for a right
to be clearly established.” See White v. Pauly, 137 S. Ct. 548, 551 (2017) (per
curiam) (cleaned up). Indeed, QI “will not protect officers who apply excessive
and unreasonable force merely because their means of applying it are novel.”
Newman v. Guedry, 703 F.3d 757, 764 (5th Cir. 2012). Thus, it’s irrelevant
that we hadn’t previously found a use of pepper spray—as distinguished from
some other instrument—to violate the Eighth Amendment. 6
But for the law to be clearly established, it must have been “beyond debate” that Alamu broke the law. Pauly, 137 S. Ct. at 551. “The Eighth Amendment’s prohibition of cruel and unusual punishments necessarily excludes
from constitutional recognition de minimis uses of physical force, provided that
the use of force is not of a sort repugnant to the conscience of mankind.” 7 Thus,
for the law to be clearly established, it must be beyond debate that the spraying
crossed the line dividing a de minimis use of force from a cognizable one. See
Hudson, 503 U.S. at 9–10.
Above we highlighted several unpublished cases of ours finding such violations. But
only published opinions can clearly establish the law. See Cooper v. Brown, 844 F.3d 517,
525 n.8 (5th Cir. 2016).
6

Hudson, 503 U.S. at 9–10 (1992) (quotation marks removed); see also Wilkins, 559
U.S. at 37–38 (referencing the same principle).
7

Case: 18-40856

Document: 00515306330

Page: 10

Date Filed: 02/11/2020

10a

Above, we held that the spraying crossed that line. But it was not beyond
debate that it did, so the law wasn’t clearly established. 8 This was an isolated,
single use of pepper spray. McCoy doesn’t challenge the evidence that Alamu
initiated the Incident Command System immediately after the spray, nor that
medical personnel promptly attended to him and provided copious amounts of
water. Nor does he provide evidence to contest the Use of Force Report’s finding that Alamu used less than the full can of spray. In somewhat related circumstances, we held that spraying a prisoner with a fire extinguisher “was a
de minimis use of physical force and was not repugnant to the conscience of
mankind.” Jackson v. Culbertson, 984 F.2d 699, 700 (5th Cir. 1993) (per curiam). 9 Similarly here, on these facts, it wasn’t beyond debate that Alamu’s
single use of spray stepped over the de minimis line. For that reason, the law
wasn’t clearly established.
In contending that the law was clear, McCoy points to the general principle that prison officers can’t act “maliciously and sadistically to cause harm.”
Hudson, 503 U.S. at 7. That won’t do. The Supreme Court has repeatedly

Some might find this a puzzling result, insofar as QI might have us find a violation
in one breath, but, in the next, hold it too debatable to prevent immunity. No matter. What
the first prong gives, the second prong will often snatch back. The Supreme Court has
repeatedly reversed courts of appeals for failing to define established law narrowly, and we
must follow that binding precedent. See, e.g., Wesby v. District of Columbia, 816 F.3d 96, 102
(D.C. Cir. 2016) (Kavanaugh, J., dissenting from the denial of rehearing en banc) (“[I]n just
the past five years, the Supreme Court has issued 11 decisions reversing federal courts of
appeals in [QI] cases, including five strongly worded summary reversals.”); William Baude,
Is Qualified Immunity Unlawful?, 106 CALIF. L. REV. 45, 83 (2018) (“The [Supreme] Court
regularly reminds lower courts that ‘clearly established law’ has to be understood concretely.”); id. (“[L]ower courts are somewhat regularly reversed for erring on the side of liability, but almost never reversed for erring on the side of immunity . . . .”).
8

In finding no violation, Jackson, 984 F.2d at 700, also relied on the prisoner’s lack
of injury. But Jackson was decided well before Wilkins, 559 U.S. at 39, in which the Court
clarified that Eighth Amendment excessive-force claims do not require a showing of a morethan-de-minimis physical injury. As we have explained, nothing in this opinion says that
prisoners must prove a certain quantum of injury. The extent of injury is relevant but not
determinative. See id. at 37–39.
9

Case: 18-40856

Document: 00515306330

Page: 11

Date Filed: 02/11/2020

11a

admonished courts not to define the relevant law too capaciously. See Ashcroft
v. al-Kidd, 563 U.S. 731, 742 (2011). Fact-intensive balancing tests alone (such
as the Hudson factors) are usually not “clear” enough, 10 because the illegality
of the particular conduct at issue must be undebatable. See Ziglar v. Abbasi,
137 S. Ct. 1843, 1866 (2017). And even if general standards can clearly establish the law where the constitutional violation is “obvious,” Haugen, 543 U.S.
at 199, this is not such a case. Above, we found that two of Hudson’s five factors
(injury, and efforts to temper force) weighed for Alamu, so the result was
hardly obvious. 11 Accordingly, we affirm the summary judgment.
III.
McCoy has two remaining claims. First, he asserts that the district court
erred in refusing to let him amend his complaint to add evidence from the Use
of Force video and a claim for injunctive relief.

We affirm, because the

proposed amendments were futile. 12 The video was already in evidence, and
McCoy’s transfer to a different prison mooted any claim for injunctive relief. 13

E.g., Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (per curiam) (“The Court of
Appeals . . . proceeded to find fair warning in the general tests set out in Graham and Garner.
In so doing, it was mistaken. Graham and Garner, following the lead of the Fourth Amendment’s text, are cast at a high level of generality.” (citations omitted)).
10

11

See, e.g., Pauly, 137 S. Ct. at 552 (citation and quotation marks omitted):

This is not a case where it is obvious that there was a violation of clearly
established law under Garner and Graham. . . . [The court of appeals] recognized that this case presents a unique set of facts and circumstances in light of
White’s late arrival on the scene. This alone should have been an important
indication . . . that White’s conduct did not violate a clearly established right.
Though “[t]he court should freely give leave when justice so requires,” FED. R. CIV.
P. 15(a)(2), a district court may deny leave where the amendment would be futile, e.g., Foman
v. Davis, 371 U.S. 178, 182 (1962).
12

E.g., Herman v. Holiday, 238 F.3d 660, 665 (5th Cir. 2001) (“Herman’s transfer from
[one prison to another] rendered his claims for declaratory and injunctive relief moot. And
any suggestion of relief based on the possibility of [being] transfer[red] back . . . is too speculative to warrant relief.” (citation omitted)).
13

Case: 18-40856

Document: 00515306330

Page: 12

Date Filed: 02/11/2020

12a

Second, McCoy urges that because he sought to “add[] an injunction” to
his original complaint, the district court improperly dismissed his officialcapacity claim. 14 Again, we affirm. The court properly denied McCoy leave to
add a claim for injunctive relief, so dismissal was proper.
AFFIRMED.

McCoy does not challenge the court’s conclusion that the Eleventh Amendment
barred his official-capacity claim for damages.
14

Case: 18-40856

Document: 00515306330

Page: 13

Date Filed: 02/11/2020

13a

GREGG COSTA, Circuit Judge, dissenting in part:
If a prison guard punched an inmate “for no reason,” that assault would
violate clearly established law. See Cowart v. Erwin, 837 F.3d 444, 449, 454–
55 (5th Cir. 2016). The same would be true if a guard hit an inmate with a
baton “for no reason.” Cf. Outlaw v. City of Hartford, 884 F.3d 351, 366–67 (2d
Cir. 2018) (noting that “repeatedly beating an unresisting, supine, jaywalking
suspect with a stick” violated clearly established Fourth Amendment law). A
guard who tased an inmate without provocation could also be held accountable.
Cf. Newman v. Guedry, 703 F.3d 757, 763–64 (5th Cir. 2012) (holding that
repeatedly tasing a nonthreatening arrestee during a traffic stop violated
clearly established Fourth Amendment law). Should the result be different
because Alamu’s weapon of choice was pepper spray?
Our precedent answers “No”. “Lawfulness of force . . . does not depend on
the precise instrument used to apply it.” Id. at 763. That makes sense.
Qualified immunity is about notice. Hope v. Pelzer, 536 U.S. 730, 739 (2002)
(“Qualified immunity operates to ensure that before they are subject to suit,
officers are on notice their conduct is unlawful.”). If a public official knows that
using force is unlawful in a given circumstance, there is no reason to “protect
[him for] apply[ing] excessive and unreasonable force merely because [his]
means of applying it are novel.” Newman, 703 F.3d at 764. So just as the use
of force in Newman violated clearly established law even though there were no
“tasing” cases on the books, id., Alamu’s gratuitous use of force on an inmate
also violated clearly established law despite the lack of published “pepper
spraying” cases so holding.
Despite

recognizing

that

an

unprovoked

assault

violates

the

Constitution, the majority grants the guard immunity because we have not
decided a similar case involving pepper spray. That holding is at odds with

Case: 18-40856

Document: 00515306330

Page: 14

Date Filed: 02/11/2020

14a

Newman, which recognizes that the circumstances surrounding the use of
force—the need for applying force, “the relationship between the need and the
amount of force used,” etc.—are what matter. Id. at 763–64 (quotation
omitted). The chosen instrument of force does not. Id. And apart from its
wisdom in the first place, Newman has put officials on notice for the last seven
years that using a unique “instrument” of force does not allow them to escape
liability for constitutional violations. That notice alone defeats qualified
immunity.
Although the majority purports to recognize that the instrument of force
does not matter in a “no provocation” case, its grant of immunity ultimately
turns on the fact that the guard used pepper spray instead of a fist, taser, or
baton. It relies on the absence of law clearly establishing that wantonly
spraying a prisoner with a chemical agent involves more than a de minimis use
of force. The same could have been said in Newman about tasing. Unexplained
in the majority opinion is why tasing is a more serious use of force than pepper
spraying. The use of pepper spray is no small thing. The chemical agent, which
temporarily blinds its recipients, is—unlike tasers—banned for use in war. See
Convention on the Prohibition of the Development, Production, Stockpiling and
Use of Chemical Weapons and on Their Destruction art. I(5), opened for
signature Jan. 13, 1993, 1974 U.N.T.S. 317. And numerous federal courts have
treated pepper spray as a dangerous weapon in criminal cases, which requires
a finding that the “instrument [is] capable of inflicting death or serious bodily
injury,” U.S.S.G. § 1B1.1 cmt. n.1(E)(i)—a much higher force threshold than
clearing the de minimis hurdle. See, e.g., United States v. Melton, 233 F. App’x
545, 547 (6th Cir. 2007); United States v. Neill, 166 F.3d 943, 949–50 (9th Cir.
1999); United States v. Bartolotta, 153 F.3d 875, 879 (8th Cir. 1998). Like
tasing, pepper spraying is a far more significant use of force than the “push or
shove” the Supreme Court has held out as examples of de minimis force.

Case: 18-40856

Document: 00515306330

Page: 15

Date Filed: 02/11/2020

15a

Hudson v. McMillian, 503 U.S. 1, 9 (1992) (quoting Johnson v. Glick, 481 F.2d
1028, 1031 (2d Cir. 1973) (Friendly, J.)).
The majority neglects that the gratuitous tasing in Newman was deemed
an “obvious” case of excessive force, 703 F.3d at 764, a label that also fits the
pepper spraying of McCoy “for no reason.” Qualified immunity is often a game
of find-that-case, but not always. Common sense still plays a role; when the
violation of constitutional rights is “obvious,” there is no immunity. Hope, 536
U.S. at 740–41; see also City of Escondido v. Emmons, 139 S. Ct. 500, 504 (2019)
(per curiam) (recognizing the obviousness exception); District of Columbia v.
Wesby, 138 S. Ct. 577, 590 (2018) (same). That principle is rooted in the fair
notice concerns that animate qualified immunity. Hope, 536 U.S. at 739–40. A
public official is liable only when “a reasonable official would understand that
what he is doing violates” the law. See Anderson v. Creighton, 483 U.S. 635,
640 (1987). That knowledge of illegality necessarily exists when an officer
commits an obvious constitutional violation. That’s what obvious means.
And it is obvious in prison use-of-force cases that “the unnecessary and
wanton infliction of pain . . . constitutes cruel and unusual punishment
forbidden by the Eighth Amendment.” Whitley v. Albers, 475 U.S. 312, 319
(1986) (quotations omitted). “Among ‘unnecessary and wanton’ inflictions of
pain are those that are ‘totally without penological justification.’” Rhodes v.
Chapman, 452 U.S. 337, 346 (1981) (quoting Gregg v. Georgia, 428 U.S. 153,
183 (1976)). Judge Friendly’s paradigmatic example of excessive force by a
prison guard— “maliciously and sadistically” using force “for the very purpose
of causing harm,” Johnson, 481 F.2d at 1033, quoted in Whitley, 475 U.S. at
321—describes this case. McCoy’s testimony, which we must accept at this
stage, is that there was “no reason at all” to spray him. How could any guard
not know that an unprovoked use of pepper spray is unlawful? Yet the majority

Case: 18-40856

Document: 00515306330

Page: 16

Date Filed: 02/11/2020

16a

concludes it would have been reasonable for a guard to think the law allowed
him to gratuitously blind an inmate.
Although the obviousness exception does not often apply, it plays an
important role in qualified immunity doctrine. It ensures vindication of the
most egregious constitutional violations. Requiring an on-point precedent for
obvious cases can lead to perverse results. Because cases involving the most
blatantly unconstitutional conduct will not often end up in the courts of
appeals, it may be harder to find factually similar caselaw for such cases than
it is for cases with conduct presenting closer constitutional questions. But
cases involving obvious constitutional violations should be the easiest ones
in which to find that an officer was “plainly incompetent or . . . knowingly
violate[d] the law.” Malley v. Briggs, 475 U.S. 335, 341 (1986).
The panel agrees that if the jury finds the facts as McCoy presents
them—a guard’s infliction of painful force on a compliant, nonthreatening
inmate—then Alamu violated the law. Any reasonable guard would know
that such an unprovoked use of pepper spray violates the Constitution, so I
would allow a jury to decide if that is what happened.
Because McCoy’s excessive force claim should go forward under
current qualified immunity law, it does not depend on the success of recent
calls to reconsider or recalibrate the doctrine. See, e.g., Kisela v. Hughes, 138
S. Ct. 1148, 1162 (2018) (Sotomayor, J., dissenting); Ziglar v. Abbasi, 137 S.
Ct. 1843, 1871–72 (2017) (Thomas, J., concurring); Zadeh v. Robinson, 928
F.3d 457, 479–81 (5th Cir. 2019) (Willett, J., concurring in part and
dissenting in part). But with so many voices critiquing current law as
insufficiently protective of constitutional rights, the last thing we should be
doing is recognizing an immunity defense when existing law rejects it.

17a

United States District Court
Southern District of Texas

Exhibit B

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION

PRINCE MCCOY,
TDCJ # 00852958,

§
§
§
§
§
§
§
§
§

Plaintiff,
VS.
MR. ALAMU, et al,
Defendants.

August 22, 2018
David J. Bradley, Clerk

CIVIL ACTION NO. 3:17-CV-235

MEMORANDUM OPINION AND ORDER
Plaintiff Prince McCoy, an inmate in the Texas Department of Criminal Justice–
Correctional Institutions Division (“TDCJ”), brings this lawsuit pro se complaining of
excessive force used against him by a TDCJ officer. Plaintiff filed a motion for summary
judgment (Dkt. 12), to which Defendant Tajudeen Alamu has responded (Dkt. 18) and
Plaintiff has replied (Dkt. 22). Defendant filed a cross motion for summary judgement
(Dkt. 20), and Plaintiff has responded (Dkt. 28). Plaintiff also has filed motions to amend
his complaint (Dkt. 24, Dkt. 31). The motions are ripe for decision. After reviewing all
of the evidence submitted, the parties’ briefing, the applicable law, and all matters of
record, the Court concludes that leave to amend the pleadings should be DENIED and
summary judgment should be GRANTED for Defendant.
I.

BACKGROUND
Plaintiff filed his complaint (Dkt. 1) on July 25, 2017, and later amended with the

Court’s leave (Dkt. 8). His amendment (Dkt. 6) attaches witness statements, medical

1 / 18

18a

records, and grievances. Defendant has submitted Use of Force records for Plaintiff (Dkt.
20-1) and the Use of Force video recording (Dkt. 20-2).
The parties agree that on December 28, 2016, while Plaintiff McCoy was
incarcerated at the Darrington Unit in Rosharon, Texas, Defendant Alamu sprayed him
with a chemical agent. Plaintiff refers to the chemical agent as “mace” or “pepper
spray.” At the time, McCoy was housed in cell 1-24 on the “D-Line” of the Darrington
Unit’s administrative segregation block.

According to McCoy’s complaint, at

approximately 2:00 p.m., Alamu approached the cell of an inmate named Jackson, who
was nearby in D-Line cell 1-22, and Jackson threw water on Alamu. Alamu then radioed
to Sergeant Jacobs, who “came and dealt with the matter” (Dkt. 1, at 4).

At

approximately 3:30 p.m., Jackson again threw water on Alamu. Alamu then sprayed
Plaintiff in the face:
[After Jackson threw water a second time,] Alamu stood there a minute,
whipped his face and pulled out his mace. In[ma]tes began to scream,
“You can’t spray him.” Alamu asked Jackson, “Where you at?” Two
minutes later Alamu put his mace up and walked to the next cell. Plaintiff
walked away from his door. Alamu came to plaintiff’s cell (I-24) and stood
on the side of the door, and said, “24 cell, what[’]s your name and
number?” Plaintiff walked to the door and began to tell him his name,
when Alamu sprayed plaintiff in the face with his mace. Alamu called in
on the radio what he did.
(Id.). McCoy alleges that Alamu sprayed him “for no reason at all” (id. at 14). He
submits witness statements from two other inmates who also state that Alamu “whipped
his face” and sprayed McCoy.1

1

Marquieth Jackson, who was in cell I-22, states that he threw water on Alamu and that
Alamu attempted to spray Jackson “but I had a sheet up to block it,” and that Alamu then
2 / 18

19a

After spraying McCoy, Alamu immediately initiated the Incident Command
System over his radio. A supervisor and additional staff then arrived with a video
camera. One of the officers, Sergeant Idris, summoned medical staff to the cell for
screening (Dkt. 20-1, at A-012). The video recording, which is three minutes long, began
at around this point and captured Idris narrating the events (i. at A-012; Dkt. 20-2).
Gregory Burkhalter, a nurse, arrived and screened McCoy without entering the cell,
asking McCoy if he had any injuries (Dkt. 20-2, at 00:40-1:15). McCoy, who was
walking around the cell, answered Burkhalter by saying, “I can’t breathe” and “I got
sprayed in my face” (id. at 00:40-1:00). Burkhalter then stated to the camera that McCoy
“appears to be moving around just fine” and was “talking, able to breathe with no
distress” (id. at 1:00-1:10).

The written records also state, based on Burkhalter’s

assessment, that McCoy had no injuries (Dkt. 20-1, at A-012, A-019 & A-023).
Burkhalter left and Idris then continued the narration, took still photos, explained to
McCoy the reporting process and procedures, and provided him with paperwork through
his cell slot.2 Throughout the video, McCoy was walking around his cell and talking,
with no breathing problems apparent on the recording.

McCoy did not make any

complaints to Burkhalter, or elsewhere on the video recording, about his eyes.

“whipped his face” and sprayed McCoy (Dkt. 6, at 3). Justin Johnson, who was in cell I-21,
states that McCoy told Alamu his name and then Alamu “whipped his face” and “spray[ed] into
24 cell” (Dkt. 6, at 5). These statements are dated December 29, 2016, the day after the
incident. According to the Use of Force Report, Jackson and Johnson, along with multiple other
inmates, had declined the opportunity to submit statements when asked by TDCJ officials on
December 28th (Dkt. 20-1, at A-018).
2

See Dkt. 20-2, at 01:10-3:00; Dkt. 20-1, at A-024 (still photo); Dkt. 20-1, at A-016 (Idris
statement); Dkt. 20-1 at A-017 (videographer statement).

3 / 18

20a

McCoy maintains that because he was in his cell when Alamu sprayed him, he
was not a threat (Dkt. 1, at 16). He alleges that he “show[ed] no signs of aggression and
did not pose an immediate threat of harm to the officer or anyone” (id.). McCoy further
states that, according to TDCJ regulations governing the use of force and of chemical
agents, Alamu was required to warn him and give him a chance to comply (id. at 19).
TDCJ investigated the incident and completed a Use of Force Report, which
resulted in a reprimand and three months disciplinary probation for Alamu (Dkt. 20-1, at
A-006). The reprimand form reflects that officials determined that Alamu’s use of force
was provoked by an “assault” from McCoy, but that Alamu could have responded by
“moving away” rather than spraying chemical agents:
On 01/12/17 a fact finding inquiry was completed . . . . Review indicated
that Officer Alamu was assaulted by Offender McCoy # 852958, who was
secured in D-I-24 cell. Officer Alamu responded by administering his COP
[Carry-On-Person] chemical agents. The assault was not ongoing and
Officer Alamu was able to avoid further assault by moving away.
(id.). Alamu’s written statement described being hit by “unknown liquid” from Jackson’s
cell (I-22) (id. at A-010). Alamu then states that, as he moved to cell I-24 where McCoy
was housed, he was struck in the face, which caused him to react involuntarily:
As soon as I approached cell 24 I was [struck] in my face with an unknown
weapon and I went blank. I felt my life was in danger and the next thing
that crossed my mind was to use my COP. And that resulted in initiating
[the Incident Command System]. It was an involuntary action that
happened to me and that was why I had to pull out my COP.
(id.). Other documents in the record identify the object that struck Alamu as “a piece of
rolled toilet paper” (id. at A-027). The report’s fact findings state that McCoy had
“assaulted Officer Alamu with an unknown object” and that Alamu “indicate[d] that the
4 / 18

21a

assault dazed him and he responded by administering his COP chemical agent” (id. at A007). See id. at A-003 (finding that Alamu used his spray because McCoy “threw an
object from his cell and struck [Alamu] in the face”) McCoy denies that he struck Alamu
and notes that he did not receive a disciplinary case for the incident (Dkt. 28, at 1).
The Use of Force Report concluded that Alamu’s actions were not consistent with
TDCJ’s Use of Force Plan and had violated an internal rule, Rule 24(a) (Dkt. 20-1, at A004). The warden found that Alamu’s use of his chemical spray was inappropriate, but
not aggravated (id. at A-007).3 The report also noted that Alamu did not have previous
violations on his record (id. at A-006).
TDCJ records state that neither McCoy nor Alamu were injured in the incident (id.
at A-019). The records also reflect that McCoy was decontaminated with “copious
amounts of water and fresh air” and the area sprayed was “wiped clean utilizing soap and
water” (id. at A-011). However, Plaintiff alleges in his Complaint that he “suffers from
burning skin & eyes, lungs with contested breathing (being asthmatic), irritating eyes,
[and] vision impairment,” as well as “discomfort [and] severe stomach pains” (Dkt. 1, at
14). He also alleges emotional and psychological harm.4

3

Alamu did not spray his entire can of chemical agents during the incident, but rather 3.7
out of 5.0 ounces (id. at A-011).
4

Id. (in Complaint, Plaintiff alleges mental anguish, pain and suffering, shock, discomfort,
“frequent nightmares in which officers attempt to kill him,” emotional distress, ongoing anxiety,
“lack of concentration and mental awareness,” “a constant irrational fear of prison guards,” and
flashbacks); Dkt. 6, at 6 (in a statement dated January 8, 2017, Plaintiff stated that, “I suffer
extremely from burning skin, and lungs with congested breathing, irritating eyes” as well as
humiliation, mental anguish, frequent nightmares, anxiety, trouble sleeping, depression, and
other emotional injury).
5 / 18

22a

McCoy states that he received related medical treatment at the Clements Unit,
where he was transferred the day after the incident, for “stomach pains from the chemical
agents entering his digestive system” and “eye drops for a thick white discharge from his
eyes” (Dkt. 28, at 2, 7-9). He provides the Court with his “sick call” slips requesting
medical attention for these issues, among others. The Court notes that some of his sick
call slips complain of unrelated medical issues, such as low blood sugar, and that some
refer to a separate incident in which ammonia was “rubbed in [his] eyes.”5 Handwritten
notes on the sick call slips, apparently made by prison medical staff, state that McCoy
was seen by medical providers and that his problems had been addressed (Dkt. 6, at 7;
Dkt. 12-2, at 3).
II.

STANDARDS OF REVIEW

A.

Pro Se Pleadings

In reviewing the pleadings and litigation history, the Court is mindful of the fact
that Plaintiff is a TDCJ inmate proceeding pro se. Complaints filed by pro se litigants
are entitled to a liberal construction and, “however inartfully pleaded, must be held to less
5

On January 14, 2017, Plaintiff wrote a sick call slip and stated, “my vision is blurred and
my eyes are irritated with burning from being sprayed with pepper spray (Dkt. 6, at 9). He also
stated, apparently on the same day, that in addition to being sprayed with pepper spray, he had
been “subject to ammonia being rubbed in [his] eyes” (id.). He submits additional sick call slips
in which he complained of low blood sugar and stomach pain (March 15, 2017); an “aftertaste of
burning gas which causes shortness of breath” and “stomach pains” that “might be related” to the
pepper spray used in December 2016 (March 29, 2017); psychological harm because he had been
denied use of the grievance system after being sprayed (April 24, 2017); “severe stomach pains,
vision impairment, and irritation in my eyes” (May 30, 2017); and “irritated and burning eyes”
with “thick white discharge” and “vision impairment” due to “pepper spray and having ammonia
rubbed in my eyes” (July 4, 2017). See Dkt. 6, at 8-9; Dkt. 12-2, at 3. McCoy also provides
statements from other inmates corroborating his complaints of nightmares and distress, which are
dated April, June, and July 2017 (Dkt. 6, at 14-16).
6 / 18

23a

stringent standards than formal pleadings drafted by lawyers.” Erickson v. Pardus, 551
U.S. 89, 94 (2007) (internal quotation marks and citation omitted). Even under this
lenient standard a pro se plaintiff must allege more than “‘labels and conclusions’ or a
‘formulaic recitation of the elements of a cause of action.’” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.” Id. (citation omitted). Regardless of how well-pleaded the
factual allegations may be, they must demonstrate that the plaintiff is entitled to relief
under a valid legal theory.

See Neitzke v. Williams, 490 U.S. 319, 327 (1989);

McCormick v. Stalder, 105 F.3d 1059, 1061 (5th Cir. 1997).
B.

Summary Judgment—Rule 56

Both Plaintiff and Defendant have moved for summary judgment. Rule 56 of the
Federal Rules of Civil Procedure mandates the entry of summary judgment “if the
movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” FED. R. CIV. P. 56(a); see Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23 (1986); Curtis v. Anthony, 710 F.3d 587, 594 (5th Cir.
2013). Once the movant presents a properly supported motion for summary judgment,
the burden shifts to the nonmovant to show with significant probative evidence the
existence of a genuine issue of material fact. Hamilton v. Segue Software Inc., 232 F.3d
473, 477 (5th Cir. 2000). “A fact is ‘material’ if its resolution in favor of one party might
affect the outcome of the lawsuit under governing law.” Id. “An issue is ‘genuine’ if the
evidence is sufficient for a reasonable jury to return a verdict for the nonmoving party.”
7 / 18

24a

Id.

The nonmoving party must present specific facts which show “the existence of a

genuine issue concerning every essential component of its case.” Firman v. Life Ins. Co.
of N. Am., 684 F.3d 533, 538 (5th Cir. 2012) (citation and internal quotation marks
omitted).
In deciding a summary judgment motion, the reviewing court must “construe all
facts and inferences in the light most favorable to the nonmoving party.” Dillon v.
Rogers, 596 F.3d 260, 266 (5th Cir. 2010) (internal citation and quotation marks
omitted).

However, the non-movant cannot avoid summary judgment simply by

presenting “conclusional allegations and denials, speculation, improbable inferences,
unsubstantiated assertions, and legalistic argumentation.” Jones v. Lowndes Cnty., 678
F.3d 344, 348 (5th Cir. 2012) (internal citation, alteration and quotation marks omitted);
see Little v. Liquid Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994) (en banc). Likewise,
Rule 56 does not impose upon the Court a duty to sift through the record in search of
evidence to support a party’s opposition to summary judgment. Evidence not referred to
in the response to the motion for summary judgment is not properly before the Court,
even if it exists in the summary judgment record. Malacara v. Garber, 353 F.3d 393,
405 (5th Cir. 2003).
III.

ANALYSIS
Plaintiff McCoy brings a claim against Defendant Alamu in his individual and

official capacities for excessive use of force in violation of the Eighth Amendment. 6 He
6

McCoy clarifies in his summary judgment response that he does not bring a retaliation
claim against Alamu (Dkt. 28, at 1).
8 / 18

25a

seeks relief in the form of compensatory, punitive, and nominal damages (Dkt. 1, at 4).
Alamu seeks dismissal of all of Plaintiff’s claims.
A.

Eleventh Amendment Immunity

A claim against a TDCJ official in his or her official capacity is a claim against
TDCJ, and thus a claim against the State of Texas. See Mayfield v. Tex. Dep’t of Crim.
Justice, 529 F.3d 599, 604 (5th Cir. 2008). Because the Eleventh Amendment protects
the states’ sovereign immunity, federal courts lack jurisdiction over suits against a state
for money damages unless the state has waived its immunity or Congress has clearly
abrogated that immunity. NiGen Biotech, L.L.C., v. Paxton, 804 F.3d 389, 393-94 (5th
Cir. 2015); Moore v. La. Bd. of Elem. and Secondary Educ., 743 F.3d 959, 963 (5th Cir.
2014). Texas has not waived its Eleventh Amendment immunity, and Congress did not
abrogate that immunity when enacting Section 1983. NiGen, 804 F.3d at 394.
Under the Eleventh Amendment, the state is immune from Plaintiff’s claim for
damages against Alamu in his official capacity. The claim therefore will be dismissed for
lack of jurisdiction.
B.

Qualified Immunity

As for the claim against Alamu in his individual capacity, Alamu has invoked
qualified immunity. Plaintiff bears the burden to negate the defense. See Hanks v.
Rogers, 853 F.3d 738, 744 (5th Cir. 2017). Determination of qualified immunity requires
a bifurcated analysis: first, the court must decide “whether the undisputed facts and the
disputed facts, accepting the plaintiffs’ version of the disputed facts as true, constitute a
violation of a constitutional right”; and second, the court must determine “whether the
9 / 18

26a

defendant’s conduct was objectively reasonable in light of clearly established law.”
Carroll v. Ellington, 800 F.3d 154, 169 (5th Cir. 2015) (internal quotation marks and
citation omitted); see Thompson v. Mercer, 762 F.3d 433, 437 (5th Cir. 2014). Qualified
immunity protects “all but the plainly incompetent or those who knowingly violate the
law.” Pratt v. Harris Cty., Tex., 822 F.3d 174, 181 (5th Cir. 2016) (internal citation and
quotation marks omitted). “If officers of reasonable competence could disagree as to
whether the plaintiff’s rights were violated, the officer’s qualified immunity remains
intact.” Hanks, 853 F.3d at 744 (internal citations and quotation marks omitted).
A reviewing court may address the two prongs of the qualified immunity analysis
in any sequence, depending on the circumstances of the particular case at hand. Pearson
v. Callahan, 555 U.S. 223, 236 (2009); Heaney v. Roberts, 846 F.3d 795, 801 (5th Cir.
2017).

Given the circumstances of this case, the Court proceeds to the Eighth

Amendment analysis.
C.

Eighth Amendment Excessive Force Claim

When a prisoner claims that a prison official’s use of force violated the Eighth
Amendment’s ban on cruel and unusual punishments, the “core judicial inquiry” is
“whether force was applied in a good-faith effort to maintain or restore discipline, or
maliciously and sadistically to cause harm.” Hudson v. McMillian, 503 U.S. 1, 6-7 (1992)
(citing Whitley v. Albers, 475 U.S. 312 (1986)). “[Not] every malevolent touch by a
prison guard gives rise to a federal cause of action.” Id. at 9. The Eighth Amendment
prohibition “necessarily excludes from constitutional recognition de minimis uses of
physical force, provided that the use of force is not of a sort repugnant to the conscience
10 / 18

27a

of mankind.” Id. at 9-10 (internal citations and quotation marks omitted). Hudson,
applying Whitley, identified five factors relevant to the Court’s analysis: (1) the extent of
injury suffered by the inmate; (2) the need for application of force; (3) the relationship
between that need and the amount of force used; (4) the threat reasonably perceived by
the responsible officials; and, (5) any efforts made to temper the severity of a forceful
response. Id. at 7.

Regarding injury to the inmate, the Court stated, “The absence of

serious injury is . . . relevant to the Eighth Amendment inquiry, but does not end it.” Id.7
In Wilkins v. Gaddy, 559 U.S. 34, 38 (2010), the Supreme Court reaffirmed
Hudson’s holding that the courts must focus on the nature of force applied, rather than a
certain quantum of injury. The Court again rejected the notion that a plaintiff must show
“significant injury” or “serious injury” to prevail on an Eighth Amendment claim.
“Injury and force . . . are only imperfectly correlated, and it is the latter that ultimately
counts.” Id.
Plaintiff alleges that Alamu violated his Eighth Amendment right not to be
subjected to excessive force when Alamu sprayed him with a chemical agent. The use of
chemical spray against prisoners confined in their cells is not a per se Eighth Amendment
violation. See Thomas v. Comstock, 222 F. App’x 439, 442 (5th Cir. 2007) (citing Jones
v. Shields, 207 F.3d 491, 495-96 (8th Cir. 2000); Williams v. Benjamin, 77 F.3d 756, 763

7

“[T]he extent of injury suffered by an inmate is one factor that may suggest ‘whether the
use of force could plausibly have been thought necessary’ in a particular situation, ‘or instead
evinced such wantonness with respect to the unjustified infliction of harm as is tantamount to a
knowing willingness that it occur.’” Id. (quoting Whitley, 475 U.S. at 321).
11 / 18

28a

(4th Cir. 1996); Soto v. Dickey, 744 F.2d 1260, 1270-71 (7th Cir. 1984)). The Court
therefore examines the totality of the circumstances. See id.
Applying the Hudson factors, the “need for the application of force” weighs in
favor of Plaintiff in this case. See Hudson, 503 U.S. at 7. The Court will assume, based
on the Use of Force report and the disciplinary action against Alamu, that the chemical
spray against McCoy was unnecessary. The fact that Defendant’s use of force was
unnecessary, or that he was disciplined, does not complete the Eighth Amendment
inquiry. See Lewis v. Sec’y of Pub. Safety and Corrections, 870 F.3d 365, 369 & n.9 (5th
Cir. 2017) (prison officials’ violation of their own regulations, without more, does not
establish a constitutional violation).
Other Hudson factors weigh in favor of Alamu. Alamu has presented summary
judgment evidence that he reacted involuntarily after he “reasonably perceived” a threat
from McCoy (Dkt. 20-1, at A-010), which is relevant to Hudson’s fourth factor. The
record establishes without contradiction that Jackson, the inmate in a cell near McCoy’s
cell, had twice thrown liquids on Alamu, striking Alamu in the face.8 Because the prison
environment “indisputably poses significant risks to the safety of inmates and prison
staff,” an official such as Alamu “could plausibly have . . . thought,” at the time of the
incident with Plaintiff on the D-Line, that some limited use of force was necessary

8

Alamu also maintains, and the Use of Force Report states, that that he was hit in the chin
by an object that McCoy threw from his cell. McCoy disputes this fact and denies throwing
anything at Alamu (Dkt. 28, at 1). McCoy points to no record evidence supporting his assertion.
Nevertheless, the Court does not rely on this fact in reaching its conclusion.
12 / 18

29a

preserve institutional order.9 To the extent Alamu’s actions were inadvertent or not
purposeful, a mere claim of negligence on the part of prison officials is not cognizable
under § 1983 and does not demonstrate a violation of the Eighth Amendment. See
Daniels v. Williams, 474 U.S. 327 (1986); Davidson v. Cannon, 474 U.S. 344 (1986); see
also Redmond v. Crowther, 882 F.3d 927, 937 (10th Cir. 2018) (observing that
inadvertent or accidental exposure of prisoners to chemical gas “is antithetical to
deploying that force maliciously or sadistically” and does not satisfy the intent
requirement for an excessive force claim).
Alamu also has presented evidence that he tempered the use of force, as is relevant
to Hudson’s fifth factor, by using only a short burst of spray, rather than the whole can,
and by ending the incident immediately after the spray. McCoy argues that the chemical
spray was inappropriate because he posed no immediate threat from his cell (Dkt. 28, at
3).

However, as stated above, Alamu maintains that he acted involuntarily or

inadvertently when he initiated the spray (Dkt. 20-1, at A-010). He had short amount of
time to react to what he reasonably perceived as a threat, used his spray to protect
himself, and then terminated use of force. This fifth factor therefore weighs in favor of
Alamu. See Hudson, 503 U.S. at 9-10 (constitutional prohibition against excessive force
“necessarily excludes from constitutional recognition de minimis uses of physical force,

9

See Whitley, 475 U.S. at 321 (courts consider “whether the use of force could plausibly
have been thought necessary, or instead evinced such wantonness with respect to the unjustified
infliction of harm as is tantamount to a knowing willingness that it occur”) (emphasis added); see
also Bell v. Wolfish, 441 U.S. 520, 546 (1979) (“maintaining institutional security and preserving
internal order and discipline are essential goals that may require limitation or retraction of the
retained constitutional rights of . . . convicted prisoners”).
13 / 18

30a

provided that the use of force is not of a sort repugnant to the conscience of mankind”)
(internal citations and quotation marks omitted); see Thomas, 222 F App’x at 442.
As for the extent of Plaintiff’s injury, the Use of Force Report states that McCoy
had no injury, based on Burkhalter’s assessment (Dkt. 20-1, at A-019; Dkt. 20-2 at 1:001:10). The video generally corroborates the report because McCoy never complains on
the video about his eyes, and is walking and talking with no detectible breathing issues
(Dkt. 20-2).10

Plaintiff disputes these facts, directing the Court’s attention to his

statements on the video that he couldn’t breathe, as well as to his sick call slips showing
his complaints over the next six months about eye discharge, stomach pain, and
emotional harm, among other complaints. As stated above, however, these sick call slips
indicate that a separate intervening event, in which McCoy alleges that he had ammonia
“rubbed in [his] eyes,” contributed to his medical issues. Moreover, the slips show
handwritten notes stating that McCoy had been examined and treated (Dkt. 6, at 7; Dkt.
12-2, at 3). In any event, even crediting all of Plaintiff’s allegations, his injuries resulting
from the spray on December 28, 2016, qualify as a minor injury. See, e.g., Siglar v.
Hightower, 112 F.3d 191, 193 (5th Cir. 1997) (sore, bruised ear lasting three days was de
minimis injury); Bradshaw v. Unknown Lieutenant, 48 F. App’x 106, 2002 WL
31017404, at *1 (5th Cir. 2002) (burning eyes and skin, twitching of eyes, blurred vision,
irritation of nose and throat, and mental anguish as result of chemical spray was de
10

The Supreme Court has held that, on summary judgment, reliance on video evidence is
appropriate. Scott v. Harris, 550 U.S. 372, 380-81 (2007) (“Respondent’s version of events is
so utterly discredited by the record that no reasonable jury could have believed him. The Court
of Appeals should not have relied on such visible fiction; it should have viewed the facts in the
light depicted by the videotape”).
14 / 18

31a

minimis). This consideration is also relevant to the Court’s analysis under Hudson. See
Wilkins, 559 U.S. at 37-38 (noting that the “absence of serious injury” is relevant to an
Eighth Amendment claim and that an inmate who lacks any discernable injury “almost
certainly fails to state a valid excessive force claim”).
At bottom, the Eighth Amendment inquiry is whether the force was applied “in a
good-faith effort to maintain or restore discipline, or maliciously and sadistically to cause
harm” Hudson, 503 U. S. at 6-7. The investigative finding that Alamu’s use of force was
unnecessary is inadequate to demonstrate “malicious” or “sadistic” behavior by Alamu,
because the Supreme Court clearly has held that inadvertence or good-faith error does not
suffice to show an Eighth Amendment violation:
It is obduracy and wantonness, not inadvertence or error in good faith, that
characterize the conduct prohibited by the Cruel and Unusual Punishments
Clause. . . . The infliction of pain in the course of a prison security measure,
therefore, does not amount to cruel and unusual punishment simply because
it may appear in retrospect that the degree of force authorized or applied for
security purposes was unreasonable, and hence unnecessary in the strict
sense.
Whitley, 475 U.S. at 319. See Hudson, 503 U.S. at 9 (“[Not] every malevolent touch by
a prison guard gives rise to a federal cause of action”). Although Plaintiff asserts that
Alamu “was motivated in his actions by ill-will with a desire to injure” (Dkt. 1, at 20) and
“sprayed [McCoy] for the malicious purpose of causing pain and suffering” (id. at 2021), the record contains no competent summary judgment evidence supporting these
conclusory allegations. To the contrary, the evidence of record demonstrates that Alamu
reacted quickly to what he reasonably perceived was a security threat, given that he had
recently been hit twice by liquid thrown from a neighboring cell (Dkt. 20-1, at A-010);
15 / 18

32a

that he “went blank” and acted involuntarily out of fear in the moment (id.); that he did
not use his full can of spray and immediately ended the incident (id. at A-011); and that
he had not been previously disciplined (id. at A-006). All of this evidence supports the
conclusion that Alamu’s misdirected efforts were taken in self-defense and in a “goodfaith effort to maintain or restore discipline.” See Hudson, 503 U.S. at 6-7. McCoy’s
bare allegations that Alamu acted with malicious and sadistic intent are not supported by
the evidence and do not suffice to create a genuine question of material fact See Jones,
678 F.3d at 348 (non-movant cannot avoid summary judgment simply by presenting
conclusory allegations, unsubstantiated assertions, or legalistic argumentation).
For all of the reasons stated above, the Court concludes that Plaintiff has not
demonstrated a genuine question of material fact as to whether Alamu acted in a good
faith effort to maintain or restore discipline, rather than maliciously or sadistically to
inflict pain or use force in excess of the need. See Hudson, 530 U.S. at 6-7. For the same
reasons, Alamu is entitled to qualified immunity because his actions were not objectively
unreasonable in light of clearly established Eighth Amendment law. See Hanks, 853 F.3d
at 744; Carroll, 800 F.3d at 169.
D.

Plaintiff’s Request for Leave to Amend His Pleadings

After Defendant moved for summary judgment, Plaintiff McCoy filed two
motions for leave to amend his complaint. Rule 15(a) provides that a court “should freely
give leave [to amend] when justice so requires.” FED. R. CIV. P. 15(a)(2). A court must
have a “substantial reason” to deny a request for leave to amend. Stem v. Gomez, 813
F.3d 205, 215 (5th Cir. 2016). Leave to amend is not automatic, and the decision to grant
16 / 18

33a

or deny leave to amend “is entrusted to the sound discretion of the district court.”
Pervasive Software Inc. v. Lexware GmbH & Co., 688 F.3d 214, 232 (5th Cir. 2012)
(internal citation and quotation marks omitted). A district court “should consider factors
such as ‘undue delay, bad faith or dilatory motive on the part of the movant, repeated
failure to cure deficiencies by amendments previously allowed, undue prejudice to the
opposing party, and futility of amendment.’” In re Am. Int’l Refinery, Inc., 676 F.3d 455,
466-67 (5th Cir. 2012) (quoting In re Southmark, 88 F.3d 311, 315 (5th Cir. 1996));
Duzich v. Advantage Finance Corp., 395 F.3d 527, 531 (5th Cir. 2004).
McCoy filed his first motion for leave to amend (Dkt. 24) after he had the
opportunity to review the Use of Force video. He argues in his motion that Jackson can
be heard admitting that Jackson had assaulted Alamu, and that “this additional
evidence . . . proves that the use of force by Alamu was unnecessary and unjustified” (id.
at 1). Plaintiff’s motion will be denied as futile because the facts he asserts do not alter
the Court’s analysis above of his Eighth Amendment claims.

Moreover, Plaintiff’s

motion is unnecessary because the Court already has given full consideration to the Use
of Force video.
In his second motion for leave to amend (Dkt. 31), Plaintiff seeks “injunctive
relief to be assured the defendant Mr. Alamu does not violate his rights again” if McCoy
and Alamu are ever on the same unit. Because Plaintiff makes no allegations relevant to
the four elements necessary to warrant injunctive relief, see Jones v. Texas Dep’t of
Criminal Justice, 880 F.3d 756, 759 (5th Cir. 2018), and for all of the reasons stated

17 / 18

34a

above in the Court’s analysis of Plaintiff’s Eighth Amendment claim, this motion to
amend will also be denied.
The Court in its discretion denies both of Plaintiff’s motions for leave to amend
his complaint.
IV.

CONCLUSION
For the reasons stated above the Court ORDERS that:
1.

Plaintiff’s motion for summary judgment (Dkt. 12) is DENIED.

2.

Defendant’s motion for summary judgment (Dkt. 20) is GRANTED. All
of Plaintiff’s claims are DISMISSED with prejudice.

3.

Plaintiff’s motions to amend his complaint (Dkt. 24, Dkt. 31) are DENIED.

A separate final judgment will issue.
SIGNED at Galveston, Texas, this 22nd day of August, 2018.
___________________________________
George C. Hanks Jr.
United States District Judge

18 / 18

Case: 18-40856

Document: 00515335101

Page: 1

Date Filed: 03/04/2020

35a
Exhibit C

Case: 18-40856

Document: 00515335101
36a

Page: 2

Date Filed: 03/04/2020

Case: 18-40856

Document: 00515335113

Page: 1

Date Filed: 03/04/2020

37a

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

March 06, 2020
#852958
Mr. Prince McCoy Sr.
CID Stiles Prison
3060 FM 3514
Beaumont, TX 77705-0000
No. 18-40856

Prince McCoy, Sr. v. Alamu
USDC No. 3:17-CV-235

Dear Mr. McCoy,
We received your letter request for an extension of time to file
a petition for rehearing. No action will be taken. The time for
an extension, or an actual petition for rehearing under FED. R.
APP. P. 40 has expired. Any attempt in filing a rehearing at this
time will require leave of court to do so, out of time.
Sincerely,
LYLE W. CAYCE, Clerk

By: _________________________
Donna L. Mendez, Deputy Clerk
504-310-7677
cc:

Ms. Penelope Maley
Ms. Briana Marie Webb

